No. 19-101

In the
Supreme Court of the United States

IMPERIUM IP HOLDINGS (CAYMAN), LTD.,
Petitioner,
v.
SAMSUNG ELECTRONICS CO., LTD., et al.
Respondent.
CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I declare that the Brief of US
Inventor, Inc. as Amicus Curiae in Support of Petitioner in case No. 19-101 contains
2,528 words, excluding parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 19th day of August, 2019.
Respectfully submitted,
/s/Robert P. Greenspoon
Robert Greenspoon
Flachsbart & Greenspoon, LLC
333 N. Michigan Avenue
Suite 2700
Chicago, IL 60601
(312) 551-9500

